No.
IN THE
SUPREME COURT OF THE UNITED STATES
SAMUEL KWUSHUE— Petitioner
vs.
UNITED STATES OF AMERICA— Respondent(s)
PROOF OF SERVICE
I SAMUEL KWUSHUE do swear or declare that on this date; April 15, 2020, as
required by Supreme Court Rule 29, that I have served the enclosed PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice, RM 5616
950 Pennsylvania Ave N.W
Washington, D.C 20530-0001
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 15, 2020.

Cfcvtue5^ Kn/v*#*'6
C,cei

1

